APPENDIX A
Decision of the Tenth Circuit

United States v. Begay, 974 F.3d 1172 (2020)

974 F.3d 1172
United States Court of Appeals, Tenth Circuit.
UNITED STATES of America, Plaintiff - Appellee,
v.
Patrick Calvin BEGAY, Defendant - Appellant.
No. 19-2022
|
FILED September 11, 2020
Synopsis
Background: Defendant was convicted, on guilty plea entered in the United States
District Court for the District of New Mexico, Judith C. Herrera, Senior District Judge,
of two counts of assault with a dangerous weapon and one count of assault resulting in
serious bodily injury, and he appealed from sentence imposed.

The Court of Appeals, Lucero, Circuit Judge, held that in imposing sentence, court could
not consider disparities that allegedly existed between sentences imposed on Native
Americans subject to prosecution in federal court for assaults committed on Indian land
and sentences imposed on state court defendants convicted of like assaults.
Affirmed.
Procedural Posture(s): Appellate Review; Sentencing or Penalty Phase Motion or
Objection.
*1173 Appeal from the United States District Court for the District of New Mexico
(D.C. No. 1:17-CR-01714-JCH-1) (D. N.M.)
Attorneys and Law Firms
Submitted on the briefs: *
Brian A. Pori, Assistant Federal Public Defender, Albuquerque, New Mexico, for
Defendant-Appellant.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

United States v. Begay, 974 F.3d 1172 (2020)

John C. Anderson, United States Attorney, Albuquerque, New Mexico, for PlaintiffAppellee.
Before LUCERO, MURPHY, and EID, Circuit Judges.
Opinion
LUCERO, Circuit Judge.
This case involves disparities in the sentences received by Native Americans in federal
court for aggravated assault as compared to state-court sentences for similar conduct.
Although we are sympathetic to Begay's argument that but for an “an accident of
history and geography,” he would have received a lighter sentence, we conclude that
our precedents foreclose the consideration of federal/state sentencing disparities under
18 U.S.C. § 3553(a)(6). Accordingly, exercising jurisdiction under 28 U.S.C. § 1291,
we affirm the judgment of the district court.

I
Begay assaulted a man in the Navajo Nation with a baseball bat and a knife. The crime
thus occurred in Indian country, within the boundaries of the reservation. Both Begay
and the victim are enrolled members of the Navajo Nation. Begay was indicted in
federal court on two counts of assault with a dangerous weapon and one count of assault
resulting in serious bodily injury. He pled guilty to these charges.
The Probation Office issued a Presentence Report (“PSR”) calculating Begay's
guidelines imprisonment range to be 46 to 57 months. By analogy to Kimbrough v.
United States, 552 U.S. 85, 128 S.Ct. 558, 169 L.Ed.2d 481 (2007), Begay requested
that the court vary from this range because significantly higher penalties are imposed on
Native Americans convicted of assault in New Mexico federal court than in New Mexico
state court. Defense counsel requested to submit testimony regarding this asserted
sentencing disparity. The government objected, arguing that under our precedents, if
the district court “even considers this argument or this train of argument in any way
whatsoever, any sentence rendered by the [c]ourt becomes invalid.” The sentencing
judge agreed, stating that she could not consider Begay's sentencing-disparity argument
under our unpublished decision in United States v. Beaver, 749 F. App'x 742 (10th Cir.
2018) (unpublished), and moreover, she would not consider this argument because the
evidence Begay offered to present lacked sufficient detail to make any comparison of
his sentence to state-court sentences meaningful.
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

United States v. Begay, 974 F.3d 1172 (2020)

Begay was sentenced to 46 months’ imprisonment. He appeals, challenging the
reasonableness of his sentence.

II
We review a district court's sentencing decision for reasonableness. *1174
“[R]easonableness review has two aspects: procedural and substantive.” United States v.
Cookson, 922 F.3d 1079, 1091 (10th Cir. 2019). “Review for procedural reasonableness
focuses on whether the district court committed any error in calculating or explaining
the sentence.” United States v. Friedman, 554 F.3d 1301, 1307 (10th Cir. 2009).
Substantive reasonableness addresses “whether the length of the sentence is reasonable
given all the circumstances of the case in light of the factors set forth in
§ 3553(a).”

18 U.S.C.

United States v. Verdin-Garcia, 516 F.3d 884, 895 (10th Cir. 2008)

(quotation omitted). Section 3553(a) includes an “overarching provision instructing
district courts to ‘impose a sentence sufficient, but not greater than necessary,’ to
accomplish the goals of sentencing” set forth in
U.S. at 101, 128 S.Ct. 558 (quoting

§ 3553(a)(2).

Kimbrough, 552

§ 3553(a)). The statute enumerates several factors

that the sentencing court “shall consider.”

§ 3553(a). Of particular relevance to this

appeal is § 3553(a)(6), under which a sentencing court considers “the need to avoid
unwarranted sentence disparities among defendants with similar records who have been
found guilty of similar conduct.”
“We review sentences for reasonableness under a deferential abuse of discretion
standard.” United States v. Haley, 529 F.3d 1308, 1311 (10th Cir. 2008) (citation
omitted). Under this standard, we will reverse a sentence if it is “arbitrary, capricious,
whimsical, or manifestly unreasonable.” United States v. Muñoz-Nava, 524 F.3d
1137, 1146 (10th Cir. 2008) (quotation omitted). “A district court by definition abuses
its discretion when it makes an error of law.”
100, 116 S.Ct. 2035, 135 L.Ed.2d 392 (1996).

Koon v. United States, 518 U.S. 81,

A
Citing Kimbrough, Begay argues that sentencing courts are not prohibited from
considering whether sentences imposed on Native Americans for aggravated assault

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

United States v. Begay, 974 F.3d 1172 (2020)

are unfairly harsh because Native Americans are disproportionately subject to federal
jurisdiction. In Kimbrough, the Supreme Court upheld a district court's decision to
impose a below-guidelines sentence on a defendant who pled guilty to charges relating
to the possession and distribution of crack cocaine. 552 U.S. at 91-93, 128 S.Ct.
558. The Court began by explaining that the 100-to-1 disparity in crack and powder
offenses—treating each gram of crack cocaine as equivalent to 100 grams of powder
cocaine—originated in the Anti-Drug Abuse Act of 1986 (“ADAA”) and was based
on several false assumptions about the relative harmfulness of the two drugs. Id. at
95-97, 128 S.Ct. 558. It further explained that the Sentencing Commission, in adopting
the ADAA's “weight-driven scheme” to set base offense levels for drug-trafficking,
acted outside its “characteristic institutional role” to formulate sentencing standards
based on “empirical data and national experience.” Id. at 96, 109, 128 S.Ct. 558
(quotation omitted). The Court also noted that the Commission itself had determined
that the disparity was “generally unwarranted” for several reasons, including that it
disproportionately affected African Americans and thereby “foster[ed] disrespect for
and lack of confidence in the criminal justice system.” Id. at 97-98, 128 S.Ct. 558
(quotations and citations omitted). Consistent with these conclusions, the Commission
attempted several times—in 1995, 1997, 2002, and 2007—to reduce the crack/powder
disparity, with limited success. See

id. at 99, 128 S.Ct. 558.

*1175 Against this background, the district court sentenced Kimbrough below the
recommended guidelines range. The court reasoned that the crack/powder cocaine
disparity in the Guidelines “drove the offense level to a point higher than is necessary
to do justice in this case.” Id. at 111, 128 S.Ct. 558 (alteration omitted). The
Fourth Circuit reversed, holding that “a sentence outside the guidelines range is per se
unreasonable when it is based on a disagreement with the sentencing disparity for crack
and powder cocaine offenses.”

Id. at 93, 128 S.Ct. 558.

Reversing the Fourth Circuit, the Supreme Court began from the premise stated in
United States v. Booker, 543 U.S. 220, 125 S.Ct. 738, 160 L.Ed.2d 621 (2005), that the
Guidelines are no longer mandatory, and the district court is tasked with “impos[ing] a
sentence sufficient, but not greater than necessary” to accomplish the goals of sentencing
provided in § 3553(a). Hudson v. United States, 522 U.S. 93, 101, 118 S.Ct. 488,
139 L.Ed.2d 450 (1997) (quotation omitted). The Court concluded that consistent with
this directive, “the District Court properly homed in on the particular circumstances
of Kimbrough's case and accorded weight to the Sentencing Commission's consistent
and emphatic position that the crack/powder disparity is at odds with

§ 3553(a).”

Id. at 111, 118 S.Ct. 488. Accordingly, the Court held that the district court did not
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

4

United States v. Begay, 974 F.3d 1172 (2020)

abuse its discretion in calculating Kimbrough's sentence, and the Fourth Circuit erred
in concluding otherwise. Id.
Begay draws several comparisons between the crack/powder disparity addressed by
the Court in Kimbrough and the disparity in aggravated-assault sentences imposed
on Native Americans. Like the crack/powder disparity, the aggravated-assault disparity
originates in a statute: the 1885 Major Crimes Act (“MCA”), 18 U.S.C. § 1153, which
confers exclusive jurisdiction to the federal courts over certain offenses committed by
“[a]ny Indian ... within the Indian country.” As Begay contends, and the government
does not dispute, the MCA disproportionately affects Native Americans.
Also like the crack/powder disparity, the aggravated-assault disparity is not the result
of empirical data or national experience. Begay avers that the Sentencing Commission
failed to collect adequate demographic data when it decided to apply the Guidelines to
the MCA. As a result, the Commission did not consider the potentially disproportionate
impact the Guidelines would have on Native Americans convicted of crimes enumerated
in the statute. Acknowledging this problem, the Commission formed two advisory
groups, the Native American Advisory Group (“NAAG”) and the Tribal Issues Advisory
Group (“TIAG”), to improve the application of the Guidelines to Native Americans
under the MCA. The advisory groups confirmed the disparity between federal and state
sentences imposed on Native Americans—particularly aggravated-assault sentences in
New Mexico. See U.S. Sentencing Comm'n, Report of the Native American Advisory
Group i (2003); U.S. Sentencing Comm'n, Report of the Tribal Issues Advisory Group
3, 19 (2016).

B
Before the district court, Begay argued these similarities with Kimbrough warranted
consideration in the calculation of his sentence. Relying on our unpublished decision
in Beaver, 749 F. App'x 742, the district court concluded that it could not consider
disparities in aggravated-assault sentences imposed in federal court versus New Mexico
state court. Beaver, of course, is not precedential, but it nonetheless purports to rely
on two opinions, United States v. Branson, 463 F.3d 1110 (10th Cir. 2006), and
*1176 United States v. Wiseman, 749 F.3d 1191 (10th Cir. 2014), for its stated
proposition. 749 F. App'x at 748. On appeal, Begay argues we should consider federal/
state sentencing disparities that disproportionately affect Native Americans, drawing
compelling parallels to the application of the crack/powder disparity on African
Americans discussed in

Kimbrough.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

5

United States v. Begay, 974 F.3d 1172 (2020)

In

Branson, we rejected the argument that a sentencing court must take account

of federal/state sentencing disparities under § 3553(a)(6). 463 F.3d at 1112. That
subsection provides that sentencing courts must consider “the need to avoid unwarranted
sentence disparities among defendants with similar records who have been found guilty
of similar conduct.” § 3553(a)(6). We explained in Branson that this directive “does
not mean that a sentence calculated under the Guidelines is unreasonable simply because
it is harsher than a state-court sentence would be for a comparable crime.” 463 F.3d
at 1112. Because state and federal courts exercise concurrent jurisdiction over several
criminal offenses, differences in sentences imposed in state and federal courts are to
be expected. See

id. Thus, consistent with the rulings of our sibling circuits, we

concluded that the purpose of § 3553(a)(6) is not to prevent disparities between
state and federal sentences, but rather to prevent disparities in sentences among federal
defendants.

Id. at 1112-13 (collecting cases). Were the sentencing court to conform

a federal sentence to a state sentence, it would undermine this goal. See id. at 1112.
Accordingly, we held that “[t]he sentence imposed on Mr. Branson is not unreasonable
simply because it is more severe than a state-court sentence would have been.”
at 1113 (emphasis added).

Id.

Eight years later in Wiseman, we again rejected the argument that the district court
procedurally erred by failing to consider, under § 3553(a)(6), whether the defendant
would have received a different sentence in state court for similar conduct. 749 F.3d
at 1194, 1196. Citing Branson, we affirmed “that § 3553(a)(6) is only intended to
apply to sentencing disparity among and between similarly situated federal defendants.”
Id. at 1196 (citation omitted). We further concluded that under Kimbrough, a “judge's
policy judgment that drug sentences in federal court are too long when compared to
state court sentences” cannot be used as the basis for a downward variance under
3553(a)(6). Id.

§

We are sympathetic to Begay's concern that Native Americans receive harsher
sentences for aggravated assault than other groups for no reason other than Native
Americans are disproportionately subject to federal criminal jurisdiction. Nevertheless,
we acknowledge “[w]e cannot overrule the judgment of another panel of this court.
We are bound by the precedent of prior panels absent en banc reconsideration or a
superseding contrary decision by the Supreme Court.” In re Smith, 10 F.3d 723, 724
(10th Cir. 1993) (per curiam). Branson and Wiseman control, and they preclude
consideration of Begay's sentencing-disparity arguments.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

6

United States v. Begay, 974 F.3d 1172 (2020)

These precedents deal only with
arguments may be relevant to other

§ 3553(a)(6). Begay's sentencing-disparity
§ 3553(a) factors. See

Kimbrough, 552 U.S.

at 110-11, 128 S.Ct. 558. 1 We agree with *1177 the government, however, that
Begay has failed to sufficiently develop his arguments with respect to any
factor other than

§ 3553(a)

§ 3553(a)(6). In his opening brief on appeal, Begay cites the

provision in § 3553(a)(2)(A) that requires a district court to consider “the need for
the sentence imposed ... to promote respect for the law.” But other than a citation to
a dissenting opinion from one of our sibling circuits and a citation to Kimbrough,
he does not further develop the argument that a district court may consider a federal/
state sentencing disparity under

§ 3553(a)(2)(A). Accordingly, we consider Begay's

sentencing-disparity arguments under only

§ 3553(a)(6).

So limited, Begay's arguments are foreclosed by Branson and Wiseman. Both
cases squarely hold that a district court may not consider a federal/state sentencing
disparity under § 3553(a)(6), reasoning that consideration of such a disparity would
undermine the statute's goal of achieving uniformity in sentences among similarly
situated federal defendants.

Branson, 463 F.3d at 1112-13; Wiseman, 749 F.3d at

1196. Wiseman, moreover, holds that “the
with

Kimbrough line of cases do not ... conflict

Branson” and do not contradict our interpretation of

§ 3553(a)(6). 749 F.3d

at 1195. Instead, Kimbrough recognizes “that the guidelines are advisory and that
district courts have the authority to deviate from guideline sentences based on policy
considerations, including disagreements with the guidelines.” Id. Begay attempts to
distinguish Branson and Wiseman on the basis that they did not involve a Native
American defendant. But the disproportionate effect of a sentencing disparity on Native
Americans, though perhaps relevant to other
review federal/state disparities under

§ 3553(a) factors, does not permit us to

§ 3553(a)(6). 2

III
AFFIRMED.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

7

United States v. Begay, 974 F.3d 1172 (2020)

All Citations
974 F.3d 1172

Footnotes
*

1

After examining the briefs and appellate record, this panel has determined
unanimously to honor the parties’ request for a decision on the briefs without oral
argument. See Fed. R. App. P. 34(f); 10th Cir. R. 34.1(G). The case is therefore
submitted without oral argument.
We note that in Kimbrough, the Court specifically upheld the district court's
application of the § 3553(a) factors to the crack/powder sentencing disparity,
including its allusion to the Sentencing Commission's reports on the 100-to-1
disparity under

§ 3553(a)(5), which requires consideration of policy statements

issued by the Sentencing Commission. Id. at 110, 128 S.Ct. 558. The Court
also approved the sentencing court's “fram[ing of] its final determination in line
with

§ 3553(a)’s overarching instruction to impose a sentence sufficient, but not

greater than necessary, to accomplish the sentencing goals advanced in

§ 3553(a)

(2).” Id. at 111, 128 S.Ct. 558 (quotation omitted); see also Wiseman, 749
F.3d at 1196 (noting possibility that sentencing disparity could warrant downward
2

variance under § 3553(a) factors other than § 3553(a)(6)).
Begay also argues that his sentence is substantively unreasonable because
the district court “failed to recognize [that] federal/state sentencing disparities
warranted a place in its sentencing deliberation.” His argument for substantive
unreasonableness is substantially identical to his arguments for procedural
unreasonableness. Because he contends the district court failed to consider his
sentencing-disparity arguments under the § 3553(a) sentencing factors, Begay's
substantive-unreasonableness argument is properly addressed as a challenge to the
procedural reasonableness of his sentence. See United States v. Sanchez-Leon,
764 F.3d 1248, 1268 n.15 (10th Cir. 2014) (“[P]rocedural error is the failure to
consider all the relevant factors, whereas substantive error is when the district
court imposes a sentence that does not fairly reflect those factors.” (alterations
and quotations omitted)). Accordingly, we reject his substantive-unreasonableness
challenge.
Additionally, Begay argues in a footnote that “the issue raised in this case is
tantamount to an equal protection violation as it raises ... concerns of injustice

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

8

United States v. Begay, 974 F.3d 1172 (2020)

based on immutable characteristics.” He provides no further explanation in support
of this assertion. Because this argument is insufficiently developed, we decline
to consider it. See Bronson v. Swensen, 500 F.3d 1099, 1104 (10th Cir. 2007)
(issues omitted from or inadequately presented in opening brief are waived).
End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

9

APPENDIX B
District Court’s Oral Ruling Denying Arguments Regarding State/
Federal Sentencing Disparities

APPENDIX C
Text, 18 U.S.C. § 3553(a)

§ 3553. Imposition of a sentence, 18 USCA § 3553

United States Code Annotated
Title 18. Crimes and Criminal Procedure (Refs & Annos)
Part II. Criminal Procedure
Chapter 227. Sentences (Refs & Annos)
Subchapter A. General Provisions (Refs & Annos)
18 U.S.C.A. § 3553
§ 3553. Imposition of a sentence
Effective: December 21, 2018
Currentness
(a) Factors to be considered in imposing a sentence.--The court shall impose a sentence
sufficient, but not greater than necessary, to comply with the purposes set forth in paragraph (2) of
this subsection. The court, in determining the particular sentence to be imposed, shall consider-(1) the nature and circumstances of the offense and the history and characteristics of the
defendant;
(2) the need for the sentence imposed-(A) to reflect the seriousness of the offense, to promote respect for the law, and to provide
just punishment for the offense;
(B) to afford adequate deterrence to criminal conduct;
(C) to protect the public from further crimes of the defendant; and
(D) to provide the defendant with needed educational or vocational training, medical care, or
other correctional treatment in the most effective manner;
(3) the kinds of sentences available;
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

§ 3553. Imposition of a sentence, 18 USCA § 3553

(4) the kinds of sentence and the sentencing range established for-(A) the applicable category of offense committed by the applicable category of defendant as
set forth in the guidelines-(i) issued by the Sentencing Commission pursuant to section 994(a)(1) of title 28, United
States Code, subject to any amendments made to such guidelines by act of Congress
(regardless of whether such amendments have yet to be incorporated by the Sentencing
Commission into amendments issued under section 994(p) of title 28); and
(ii) that, except as provided in section 3742(g), are in effect on the date the defendant is
sentenced; or
(B) in the case of a violation of probation or supervised release, the applicable guidelines
or policy statements issued by the Sentencing Commission pursuant to section 994(a)(3) of
title 28, United States Code, taking into account any amendments made to such guidelines or
policy statements by act of Congress (regardless of whether such amendments have yet to be
incorporated by the Sentencing Commission into amendments issued under section 994(p)
of title 28);
(5) any pertinent policy statement-(A) issued by the Sentencing Commission pursuant to section 994(a)(2) of title 28, United
States Code, subject to any amendments made to such policy statement by act of Congress
(regardless of whether such amendments have yet to be incorporated by the Sentencing
Commission into amendments issued under section 994(p) of title 28); and
(B) that, except as provided in section 3742(g), is in effect on the date the defendant is
sentenced. 1
(6) the need to avoid unwarranted sentence disparities among defendants with similar records
who have been found guilty of similar conduct; and
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

§ 3553. Imposition of a sentence, 18 USCA § 3553

(7) the need to provide restitution to any victims of the offense.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

